App. 1
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-41176
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
FLAVIO TAMEZ,
Defendant-Appellant
-----------------------------------------------------------------------

Appeals from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

(Filed Dec. 13, 2018)
ORDER:
Flavio Tamez, federal prisoner # 14812-379, moves
this court for a certificate of appealability (COA). He
wishes to appeal the district court’s denial of his 28
U.S.C. § 2255 motion and his post judgment motion
that challenged his convictions of conspiracy to possess
with intent to distribute more than 1,000 kilograms of
marijuana and aiding and abetting money laundering.
According to Tamez, the district court erred in concluding, without holding an evidentiary hearing, that
his § 2255 motion is barred by the appeal waiver

App. 2
provision of his plea agreement and that the law of the
case doctrine precluded review of the waiver’s validity.
Additionally, Tamez reurges his claims that his trial
attorneys rendered ineffective assistance by misadvising him regarding his potential sentencing exposure
and his appellate rights and by failing to ensure that
he retained the right to appeal as discussed at his
sentencing hearing and further that his appellate attorney was ineffective in failing to overcome the Government’s motion to dismiss his direct appeal. Finally,
Tamez contends that the district court abused its discretion in denying his postjudgment motion filed pursuant to Rules 52(b) and 59(e) of the Federal Rules of
Civil Procedure.
A COA may be issued “only if the applicant has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When the district
court has denied the claims on their merits, the movant must show “that reasonable jurists would find the
district court’s assessment of the constitutional claims
debatable or wrong.” Slack v. McDaniel, 529 U.S. 473,
484 (2000). When a district court has dismissed on procedural grounds, a movant must show that “jurists of
reason would find it debatable whether the [motion]
states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable
whether the district court was correct in its procedural
ruling.” Id.
Tamez has not made the required showing. Accordingly, his motion for a COA is DENIED. His

App. 3
motions for leave to proceed in forma pauperis and for
the appointment of counsel also are DENIED.
/s/Edith H. Jones
EDITH H. JONES
UNITED STATES CIRCUIT JUDGE

App. 4
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
UNITED STATES
OF AMERICA,

§
§
Plaintiff/Respondent, §
§ CRIMINAL NO.
v.
§ 2:12-4184
§
FLAVIO TAMEZ,
§
Defendant/Movant.
§
MEMORANDUM OPINION & ORDER
(Filed Jan. 18, 2018)
Pending before the Court is Defendant/Movant
Flavio Tamez’s Motion for Amended Findings and Conclusions and Incorporated Motion to Alter/Amend
Judgment (D.E. 943), whereby he moves the Court to
amend its September 26, 2017 Memorandum Opinion
& Order granting the Government’s motion for summary judgment and denying Movant’s motion to vacate, set aside, or correct sentence pursuant to 28
U.S.C. § 2255 (D.E. 939).
I.

BACKGROUND

Movant pled guilty to conspiracy with intent to
distribute more than 1,000 kilograms of marijuana in
violation of 21 U.S.C. §§ 846, 841(a)(1), and 841(b)(1)(A)

App. 5
(Count One) and money laundering in violation of 18
U.S.C. §§ 1956(a)(1)(B)(i) and 1956(a)(2) (Count Six).
Pursuant to a written Plea Agreement, Movant waived
his right to appeal his sentence or file a motion under
28 U.S.C. § 2255. The Court accepted Movant’s guilty
plea after being satisfied that he was competent to enter a plea, there was a factual basis for the plea, he
understood the consequences of entering a plea, and he
was voluntarily and knowingly pleading guilty.
Movant was sentenced to 324 months’ imprisonment on Count One and 240 months on Count Six, to
be served concurrently and followed by 5 years’ supervised release. At sentencing, the Court also attempted
to modify the Plea Agreement by rescinding the appellate waiver and allowing Movant to retain his right to
appeal. Movant appealed, but the Fifth Circuit dismissed his appeal on the Government’s motion for specific performance of the appellate waiver provision of
the Plea Agreement. The Supreme Court thereafter denied Movant’s petition for a writ of certiorari.
Movant filed a motion to vacate, set aside, or correct sentence under 28 U.S.C. § 2255 on March 2, 2017,
asserting the following grounds for relief:
1)

His guilty plea was involuntary because
his waiver of his right to appeal and to
post-conviction relief is the result of
flawed advice from trial counsel regarding his potential sentencing exposure,
and he was not correctly advised with respect to his rights to post-conviction relief;

App. 6
2)

The Court “failed to hew to Rule 11 of the
Federal Rules of Criminal Procedure . . .
during and in relation to sentencing and
re-arraignment hearings,” and trial counsel did not adequately represent Movant
prior to and at rearraignment;

3)

Appellate counsel was ineffective by failing to thwart the Government’s effort to
secure dismissal of the appeal under the
waiver provision of the Plea Agreement;
and

4)

The doctrine of cumulative error arising
as a result of ineffective assistance of
counsel resulted in the imposition of an
unreasonable sentence.

D.E. 899. By written Memorandum Opinion & Order
and Final Judgment entered September 26, 2017, the
Court granted the Government’s motion for summary
judgment and denied Movant’s § 2255 motion on the
grounds that the waiver contained in his written Plea
Agreement barred his claims. D.E. 939, 940. Movant’s
present motion to amend that Order was mailed on October 24, 2017, according to his Certificate of Service.
It is timely. See FED. R. CIV. P. 52(b), 59(e).
II.

MOVANT’S CLAIMS

Movant’s current motion for amended findings/
conclusions or to alter/amend the judgment raises the
following issues:

App. 7
A. Whether the waiver provision at ¶ 7 of
the written Plea Agreement can bar [Movant’s] motion under 28 U.S.C. § 2255[;]
***
B.

Whether the plea, plea agreement, and
waiver were knowingly, voluntarily, and
intelligently entered and enforceable[;]
***

C.

Whether the law-of-the-case doctrine can
apply to the instant situation[;]
***

D. Whether the claims of ineffective assistance of counsel nonetheless fail to pierce
the waiver’s veil[.]
D.E. 943, pp. 8, 15, 28, 45.
III. ANALYSIS
A. FED. R. CIV. P. 52(b)1
Citing Federal Rule of Civil Procedure 52(b),
Movant first asks the Court to issue “supplemental
findings and conclusions” in order to “provide a more
complete explanation of the legal foundation for the

1

The Federal Rules of Civil Procedure apply to federal habeas petitions to the extent that they are not inconsistent with
applicable federal statutes and rules. Rule 12, RULES GOVERNING
SECTION 2255 PROCEEDINGS FOR THE UNITED STATES DISTRICT
COURTS.

App. 8
Order so as to render a record adequate to permit
meaningful review.” D.E. 943, pp. 7–8.
Rule 52 governs bench trials and provides that,
“[i]n an action tried on the facts without a jury or with
an advisory jury, the court must find the facts specially
and state its conclusions of law separately.” FED. R.
CIV. P. 52(a)(1). The Rule further provides that the
Court “is not required to state findings or conclusions
when ruling on a motion under Rule 12 or 56. . . .” FED.
R. CIV. P. 52(a)(3), Because the Court’s September 26,
2017 Memorandum Opinion & Order ruled on the Government’s motion for summary judgment under Rule
56, and it did not involve a bench trial, the Court need
not state any findings or conclusions other than those
previously set forth. Movant’s “Motion for Amended
Findings and Conclusions” pursuant to Rule 52(b) is
therefore DENIED.
B. FED. R. CIV. P. 59(e)
Movant further moves the Court to alter or amend
the judgment pursuant to Rule 59(e) and grant him relief under § 2255.
To prevail on a Rule 59(e) motion, the movant
must show at least one of the following: (1) an intervening change in controlling law; (2) new evidence not
previously available; or (3) the need to correct a clear
or manifest error of law or fact or to prevent manifest
injustice. In re Benjamin Moore & Co., 318 F.3d 626,
629 (5th Cir. 2002). “A motion to alter or amend the
judgment under Rule 59(e) ‘must clearly establish

App. 9
either a manifest error of law or fact or must present
newly discovered evidence’ and ‘cannot be used to raise
arguments which could, and should, have been made
before the judgment issued.’ ” Rosenzweig v. Azurix
Corp., 332 F.3d 854, 863–64 (5th Cir. 2003) (quoting Simon v. United States, 891 F.2d 1154, 1159 (5th Cir.
1990)). In some instances, a defendant bringing a Rule
59(e) motion may run afoul of the prohibition on second
or successive motions. Gonzalez v. Crosby, 545 U.S. 524,
532 (2005) (post-judgment motion pursuant to Rule
60(b) may be construed as second or successive § 2254);
Williams v. Thaler, 602 F.3d 291, 303 & n.10 (5th Cir.
2010) (finding 59(e) claim to be second or successive).
It is only when a Rule 59(e) motion “attacks, not the
substance of the federal court’s resolution of a claim on
the merits, but some defect in the integrity of the federal habeas proceedings,” that it does not raise a second or successive claim. Gonzalez, 524 U.S. at 532;
United States v. Hernandes, 708 F.3d 680, 681 (5th Cir.
2013) (“Where a . . . motion advances one or more substantive claims, as opposed to a merely procedural
claim, the motion should be construed as a successive
§ 2255 motion.”).
Here, Movant’s Rule 59(e) motion merely repeats
his prior claims that his § 2255 waiver is not enforceable; his plea was not knowing and voluntary; his
counsel was ineffective at sentencing; and the law-ofthe-case doctrine does not apply.2 These claims are
2

Movant also offers for the first time the affidavit of attorney
Jose Luis Ramos, who was retained to assist defense counsel at
sentencing. D.E. 943-2. There is no indication this evidence is

App. 10
substantive and are therefore second or successive
claims. Where a claim is second or successive, the movant is required to seek, and acquire, the approval of
the Fifth Circuit before filing a second § 2255 motion
before this Court.3 See Tolliver v. Dobre, 211 F.3d 876,
877 (5th Cir. 2000); 28 U.S.C. § 2244 (b)(3)(A) (“Before
a second or successive application permitted by this
section is filed in the district court, the applicant shall
move in the appropriate court of appeals for an order
authorizing the district court to consider the application.”). Movant’s motion does not indicate that he has
sought or obtained such permission. Until he does so,
this Court does not have jurisdiction over his claims.
Accordingly, Movant’s “Incorporated Motion to
Alter/Amend Judgment” under Rule 59(e) is DENIED.

“newly discovered” or was “not previously available” when Movant filed his initial motion under § 2255.
3
In pertinent part, 28 U.S.C. § 2255(h) provides:
A second or successive motion must be certified as provided in section 2244 by a panel of the appropriate
court of appeals to contain –
(1) newly discovered evidence that, if
proven and viewed in light of the evidence as
a whole, would be sufficient to establish by
clear and convincing evidence that no reasonable factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable.

App. 11
IV. CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals
from a final order in a habeas corpus proceeding
“unless a circuit justice or judge issues a certificate
of appealability.” 28 U.S.C. § 2253(c)(1)(A). Although
Movant has not yet filed a notice of appeal, the § 2255
Rules instruct this Court to “issue or deny a certificate
of appealability when it enters a final order adverse to
the applicant.” Rule 11, § 2255 RULES.
A certificate of appealability (COA) “may issue . . .
only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). “The COA determination under § 2253(c)
requires an overview of the claims in the habeas petition and a general assessment of their merits.” MillerEl v. Cockrell, 537 U.S. 322, 336 (2003). As to claims
that the district court rejects solely on procedural
grounds, the movant must show both that “jurists of
reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable
whether the district court was correct in its procedural
ruling.” Slack, 529 U.S. at 484.
The Court finds that Movant cannot establish at
least one of the Slack criteria. Accordingly, he is not
entitled to a COA as to his claims.

App. 12
V.

CONCLUSION

For the foregoing reasons, Movant’s Motion for
Amended Findings and Conclusions and Incorporated
Motion to Alter/Amend Judgment (D.E. 943) is DENIED. He is also DENIED a Certificate of Appealability.
ORDERED

1/18/18

.

/s/ Nelva Gonzales Ramos
NELVA GONZALES RAMOS
UNITED STATES DISTRICT JUDGE

App. 13
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
STARR COUNTY, TX, ET AL
(&QUOTTAXING
AUTHORITIES&QUOT [sic]),
et al,
Petitioners,
VS.
FLAVIO TAMEZ,
Defendant.

§
§
§
§ CRIMINAL ACTION
§ NO. 2:12-CR-418-1
§ CIVIL 2:17-321
§
§
§

MEMORANDUM OPINION & ORDER
(Filed Sep. 26, 2017)
Defendant/Movant Flavin Tamez filed a motion to
vacate, set aside, or correct his sentence pursuant to 28
U.S.C. § 2255 and memorandum of law in support. D.E.
900, 901.1 Pending before the Court is the United
States of America’s (the “Government”) motion for
judgment on the pleadings and for summary judgment
seeking to enforce Movant’s waiver of his right to file
the present motion (D.E. 909), to which Movant responded (D.E. 922). For the reasons stated herein, the
Government’s motion is GRANTED, and Movant’s
§ 2255 motion is DENIED.

1

Docket entries refer to the criminal case.

App. 14
I.

BACKGROUND

On October 4, 2012, Movant pled guilty to conspiracy with intent to distribute more than 1,000 kilograms of marijuana in violation of 21 U.S.C. §§ 846,
841(a)(1), and 841(b)(1)(A) (Count One) and money
laundering in violation of 18 U.S.C. §§ 1956(a)(1)(B)(i)
and 1956(a)(2) (Count Six). Pursuant to a written Plea
Agreement (D.E. 387), Movant agreed to forfeit two
pieces of real property noticed in the Superseding
Indictment under the authority of 21 U.S.C. § 853.
He also waived his right to appeal his sentence or file
a motion under 28 U.S.C. § 2255.2 In exchange for
Movant’s guilty plea, the Government agreed to recommend that Movant receive maximum credit for acceptance of responsibility and a sentence within the
applicable guideline range. The Government also
2

The waiver provision read:
Defendant waives his/her right to appeal both the conviction and the sentence imposed. Defendant is aware
that Title 18 U.S.C. § 3742 affords a defendant the
right to appeal the sentence imposed. The defendant
waives the right to appeal the sentence imposed or the
manner in which it was determined. The defendant
may appeal only (a) a sentence imposed above the statutory maximum; or (b) an upward departure from the
Sentencing Guidelines which has not been requested
by the United States, as set forth in 18 U.S.C.
§ 3742(b). Additionally, the defendant is aware that Title 28 U.S.C. § 2255, affords the right to contest or “collaterally attack” a conviction or sentence after the
conviction or sentence has become final. The defendant
waives the right to contest his/her conviction or sentence by means of any post-conviction proceeding.
Plea Agreement ¶ 7 (emphasis added).

App. 15
agreed to forgo the $500,000 money judgment noticed
in the Superseding Indictment.
Movant was represented by attorney Omar Escobar, Jr., at rearraignment. Movant affirmed under oath
that he had a copy of the indictment and that he understood the nature of the charge, the elements of the
offense, the penalty range for the offense, his right to
plead not guilty and proceed to trial, and the terms of
his written Plea Agreement, including the waiver of his
right to appeal or collaterally attack his conviction or
sentence contained in the Plea Agreement. 10/4/2012
Hrg. Tr., D.E. 753 at 13:1 1-24, 14:12–16:5, 17:4–21:5,
24:17–28:8. He testified that he had discussed the
case with counsel, including the Plea Agreement and
waiver, and that he understood the Plea Agreement’s
terms. Id. at 27:12-16, 29:3-9. He further testified that
he was pleading guilty voluntarily and was not threatened or promised leniency in exchange for his guilty
plea. Id. at 23:19–24:12. The Court explained its sentencing procedures, and Movant testified that he had
discussed with counsel how the Sentencing Guidelines
may apply to him. Id. at 21:25–23:11. He further testified that he understood he could not withdraw his
guilty plea even if the Court imposed the statutory
maximum sentence. Id. at 29:23–30:3. The Court accepted Movant’s guilty plea after being satisfied that
he was competent to enter a plea, there was a factual
basis for the plea, he understood the consequences of
entering a plea, and he was voluntarily and knowingly
pleading guilty. Id. at 45:4-12.

App. 16
The Court thereafter ordered the Probation Office
to prepare a Presentence Investigation Report (PSR).
The PSR held Movant responsible for 30,000 kilograms
of marijuana and assigned a base offense level of 38.
Two levels were added because a dangerous weapon
was possessed, two levels were added because Movant
maintained a premises for the purpose of distributing
a controlled substance, two levels were added because
Movant was convicted under 18 U.S.C. § 1956, and four
levels were added because Movant was deemed an organizer/leader of criminal activity that involved five or
more participants or was otherwise extensive. After
credit for acceptance of responsibility, Movant’s total
offense level was 45. With a Criminal History Category
I, his guideline range was life imprisonment. Movant
filed written objections to being held responsible for
30,000 kilograms of marijuana and to the enhancements for maintaining a premises for the purpose of
distributing a controlled substance, being an organizer/leader, and possessing a dangerous weapon.
Sentencing was held on March 28, 2013. At the
hearing’s outset, Movant’s new attorney, G. Allen
Ramirez, contested the Government’s position that
Movant could “be held responsible for 30,000 kilograms in the very vague way that it’s figured out in the
PSR” and urged the Court to allow Movant to retain
his right to appeal and “exercise his very important
right to challenge that methodology in the Court of
Appeals.” 3/28/2013 Hrg. Tr., D.E. 754 at 8:22–9:1. Defense counsel made it clear that he was “not asking
that [Movant] be allowed to withdraw his plea.” Id. at

App. 17
14:3-4. Indeed, counsel conceded, “I’m not saying that
he didn’t enter [the Plea Agreement] knowingly and
voluntarily. He did. I’m asking . . . for the Court not to
bind him to the waiver of appeal before we start this
hearing and allow him to appeal whatever ruling the
Court makes in this case.” Id. at 16:2-6. The Court
granted Movant’s request and modified the Plea Agreement by rescinding the appellate waiver and allowing
Movant to “retain his right to appeal.” Id. at 17:23-24.
After considering the lengthy testimony of codefendant Jose Carbajal, Jr., the Court granted Movant’s
objections to the enhancements for possessing a dangerous weapon and maintaining a premises for the
purposes of distributing a controlled substance and
overruled Movant’s objections to his role in the offense
and to the amount of marijuana involved. Id. at 68:15–
69:6. This reduced Movant’s total offense level to 41
and yielded a new guideline sentencing range of 324 to
405 months. Consistent with the terms of the Plea
Agreement, the Government recommended a sentence
at the lowest end of the Guidelines. Id. at 69:18-25. The
Court agreed and sentenced Movant to 324 months on
Count One and 240 months on Count Six, to be served
concurrently and followed by 5 years’ supervised release. Id. at 72:9-20. The Court then reiterated that it
would allow Movant to appeal his sentence and admonished him that he had 14 days from the time the
Judgment was entered to file a notice of appeal. Id. at
74:5-10. Judgment was entered April 1, 2013.
Movant appealed the Court’s Judgment; however,
because appellate counsel failed to comply with Fifth

App. 18
Circuit procedures, the appeal was dismissed. On April
1, 2015, Movant filed a motion seeking relief under 28
U.S.C. § 2255 based on ineffective assistance of appellate counsel for failure to perfect an appeal. The Court
denied relief under § 2255 without prejudice and
granted Movant an out-of-time appeal. The Fifth Circuit ultimately dismissed Movant’s appeal on January
26, 2016, on the Government’s motion for specific performance of the appellate waiver provision of the Plea
Agreement. On June 1, 2016, the Supreme Court denied Movant’s petition for a writ of certiorari. Movant
filed the present motion under § 2255 on March 2,
2017. It is timely.
II.

MOVANT’S ALLEGATIONS

Movant’s motion under 28 U.S.C. § 2255 asserts
the following grounds for relief:
1)

His guilty plea was involuntary because
his waiver of his right to appeal and to
post-conviction relief is the result of
flawed advice from trial counsel regarding his potential sentencing exposure,
and he was not correctly advised with respect to his rights to post-conviction relief;

2)

The Court “failed to hew to Rule 11 of the
Federal Rules of Criminal Procedure . . .
during and in relation to sentencing and
re-arraignment hearings,” and trial counsel did not adequately represent Movant
prior to and at rearraignment;

App. 19
3)

Appellate counsel was ineffective by failing to thwart the Government’s effort to
secure dismissal of the appeal under the
waiver provision of the Plea Agreement;
and

4)

The doctrine of cumulative error arising
as a result of ineffective assistance of
counsel resulted in the imposition of an
unreasonable sentence.

III. 18 U.S.C. § 2255
There are four cognizable grounds upon which a
federal prisoner may move to vacate, set aside, or correct his sentence: (1) constitutional issues, (2) challenges to the district court’s jurisdiction to impose the
sentence, (3) challenges to the length of a sentence in
excess of the statutory maximum, and (4) claims that
the sentence is otherwise subject to collateral attack.
28 U.S.C. § 2255; United States v. Placente, 81 F.3d 555,
558 (5th Cir. 1996). “Relief under 28 U.S.C. § 2255 is
reserved for transgressions of constitutional rights and
for a narrow range of injuries that could not have been
raised on direct appeal and would, if condoned, result
in a complete miscarriage of justice.” United States v.
Vaughn, 955 F.2d 367, 368 (5th Cir. 1992).
IV. ANALYSIS
Movant waived his right to file a § 2255 motion by
the Plea Agreement. “As a general matter . . . an informed and voluntary waiver of post-conviction relief

App. 20
is effective to bar such relief.” United States v. Wilkes,
20 F.3d 651, 653 (5th Cir. 1994); see also United States
v. White, 307 F.3d 336, 341 (5th Cir. 2002). A waiver is
enforced against an ineffective assistance of counsel
claim unless the claimed ineffective assistance directly
affected the validity of the waiver or the plea itself.
Wilkes, 20 F.3d. at 343. If the plea and waiver were
knowing and voluntary, and the waiver clearly covers
§ 2255 motions, the waiver can be enforced. Id. at 343–
44.
As set forth supra, the Court questioned Movant
about the Plea Agreement at rearraignment, including
the waiver of his right to file a § 2255 motion. Movant
testified that he read and discussed the Plea Agreement with counsel before he signed it and that he understood it. He further testified that he was aware of
the waiver, had discussed the waiver with counsel, and
understood it.
Movant nonetheless argues that the Court should
not enforce the § 2255 waiver because “[t]he misadvice
of Attorney Escobar as to sentencing exposure under
applicable law rendered the plea not knowing, voluntary, and intelligent with respect to the negotiated plea
agreement.” D.E. 900, p. 5. The burden to demonstrate
that his plea and waiver should not be enforced is on
Movant. His sworn statements in open court that he
understood his potential sentence, the Plea Agreement, and the waiver are entitled to a strong presumption of truthfulness. United States v. Lampaziane, 251
F.3d 519, 524 (5th Cir. 2001) (citing Blackledge v. Allison, 431 U.S. 63, 74 (1977)). Indeed, the Fifth Circuit

App. 21
affords “great weight to the defendant’s statements at
the plea colloquy.” United States v. Cothran, 302 F.3d
279, 283–84 (5th Cir. 2002). Furthermore, a signed, unambiguous plea agreement is accorded great evidentiary weight when deciding if the plea is entered
voluntarily. See Bonvillan v. Blackburn, 780 F.2d 1248,
1252 (5th Cir. 1986). The evidence before the Court
supports a finding that Movant’s guilty plea, including
the waiver, was knowing and voluntary.
The law-of-the-case doctrine also requires a finding that Movant’s guilty plea and waiver were knowing
and voluntary. This doctrine “ ‘posits that when a court
decides upon a rule of law, that decision should continue to govern the same issue in subsequent stages in
the same case.’ ” Med. Ctr. Pharmacy v. Holder, 634
F.3d 830, 834 (5th Cir. 2011) (quoting United States v.
Castillo, 179 F.3d 321, 326 (5th Cir. 1999), and Arizona
v. California, 460 U.S. 605, 618 (1983)). “The proscription covers issues [the appellate court has] decided expressly and by necessary implication, reflecting the
‘sound policy that when an issue is once litigated and
decided, that should be the end of the matter.’ ” United
States v. Lee, 358 F.3d 315, 320 (5th Cir. 2004) (quoting
United States v. U.S. Smelting Ref. & Mining Co., 339
U.S. 186, 198 (1950) (internal citations omitted)).
In its motion to dismiss Movant’s appeal before
the Fifth Circuit, the Government requested specific
performance of the appellate waiver provision contained in Paragraph 7 of the Plea Agreement. Tamez v.
United States, No. 16-40928 (5th Cir. 2015), Gov’t Br.
pp. 12, 18 (citing United States v. Serrano-Lara, 698

App. 22
F.3d 841, 844–45 (5th Cir. 2012) (dismissing appeal
and holding that, once a district court chooses to accept
a plea agreement, it “does not then have the option to
perform a judicial line item veto, striking a valid appeal waiver or modifying any other terms”); United
States v. Hammeren, 518 F. App’x 296, 297 (5th Cir.
2013) (district court’s comment at sentencing that defendant retained the right to appeal, contrary to the
plea agreement, did not grant a right to appeal)). In
granting the Government’s motion to dismiss based on
Movant’s appellate waiver, the Fifth Circuit implicitly
found that Movant’s guilty plea and waiver were knowing and voluntary. The Fifth Circuit also implicitly
found that this Court did not reject the entire Plea
Agreement, as Movant now claims. The Fifth Circuit’s
dismissal of Movant’s appeal and denial of rehearing,
and the Supreme Court’s subsequent denial of certiorari, implicate the law of the case doctrine and mandate dismissal of Movant’s § 2255 motion as waived
under the Plea Agreement. See United States v.
Goudeau, 512 F. App’x 390, 393 (5th Cir. 2013) (affirming denial of § 2255 motion under law of the case doctrine after panel dismissed defendant’s direct appeal
as barred by waiver, notwithstanding defendant’s ineffective assistance of counsel claims).
Movant argues that his § 2255 waiver is nonetheless unenforceable because sentencing counsel was ineffective in failing to have the plea withdrawn under
Federal Rule of Criminal Procedure 11(d) on the basis
that the appellate waiver was invalid. Under Rule 11,
a defendant can withdraw from a guilty plea “after the

App. 23
court accepts the plea, but before it imposes sentence
if: (A) the court rejects a plea agreement under Rule
11(c)(5); or (B) the defendant can show a fair and just
reason for requesting withdrawal.” FED. R. CRIM. P.
11(d)(2). Here, Movant asked the Court to allow him to
“retain his right of appeal” and “exercise his very important right to challenge [the PSR’s] methodology in
the Court of Appeals.” 3/28/2013 Tr. at 8:4, 8:24–9:1.
In response, the Court attempted to “allow [Movant] to
retain his right to appeal.” Id. at 17:23-24. Based on
the Court’s response, sentencing counsel believed, albeit incorrectly, that Movant’s right to appeal had been
restored. The Court did not reject the Plea Agreement,
and there was no reason for requesting withdrawal before the Court imposed sentence. Counsel’s failure to
move to withdraw Movant’s plea under Rule 11 was
therefore not deficient. Moreover, Movant does not explain how counsel’s alleged ineffectiveness related to
the appellate waiver rendered the § 2255 waiver invalid.
For the reasons stated herein, Movant’s § 2255
waiver is enforceable and bars his claims.
V.

CERTIFICATE OF APPEALABILITY

An appeal may not be taken to the court of appeals
from a final order in a habeas corpus proceeding “unless a circuit justice or judge issues a certificate of
appealability.” 28 U.S.C. § 2253(c)(1)(A). Although Movant has not yet filed a notice of appeal, the § 2255
Rules instruct this Court to “issue or deny a certificate

App. 24
of appealability when it enters a final order adverse to
the applicant.” RULE 11, § 2255 RULES.
A certificate of appealability (COA) “may issue . . .
only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). “The COA determination under § 2253(c)
requires an overview of the claims in the habeas petition and a general assessment of their merits,” MillerEl v. Cockrell, 537 U.S. 322, 336 (2003). To warrant a
grant of the certificate as to claims denied on their
merits, “[t]he petitioner must demonstrate that reasonable jurists would find the district court’s assessment of the constitutional claims debatable or wrong.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000). This standard requires a § 2255 movant to demonstrate that
reasonable jurists could debate whether the motion
should have been resolved differently, or that the issues presented deserved encouragement to proceed
further. United States v. Jones, 287 F.3d 325, 329 (5th
Cir. 2002) (relying upon Slack, 529 U.S. at 483–84). As
to claims that the district court rejects solely on procedural grounds, the movant must show both that “jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack, 529 U.S. at 484 (emphasis
added).
Based on the above standards, the Court concludes that Movant is not entitled to a COA on any of
his claims. That is, reasonable jurists could not debate

App. 25
the Court’s resolution of his claims, nor do these issues
deserve encouragement to proceed. See Jones, 287 F.3d
at 329.
VI. CONCLUSION
For the foregoing reasons, the Government’s motion for judgment on the pleadings and for summary
judgment (D.E. 909) is GRANTED, and Movant’s motion to vacate, set aside, or correct sentence pursuant
to 28 U.S.C. § 2255 (D.E. 900) is DENIED. Movant is
further DENIED a Certificate of Appealability.
ORDERED this 26th day of September, 2017.
/s/ Nelva Gonzales Ramos
NELVA GONZALES RAMOS
UNITED STATES DISTRICT JUDGE

App. 26
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 15-40928
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
FLAVIO TAMEZ,
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Southern District of Texas, Corpus Christi
-----------------------------------------------------------------------

(Filed Jan. 26, 2016)
Before CLEMENT, ELROD, and SOUTHWICK, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that appellee’s opposed motion
to dismiss the appeal is GRANTED.
IT IS FURTHER ORDERED that appellee’s unopposed alternative motion for an extension of 30 days
from the date of this ruling to file its brief is DENIED
AS MOOT.

App. 27
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-41176
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
FLAVIO TAMEZ,
Defendant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District
Court for the Southern District of Texas
-----------------------------------------------------------------------

ON MOTION FOR RECONSIDERATION
AND REHEARING EN BANC
(Filed Feb. 19, 2019)
Before JONES, ELROD and ENGELHARDT, Circuit
Judges.
PER CURIAM:
(X) The Motion for Reconsideration is DENIED and
no member of this panel nor judge in regular active service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.

App. 28
( ) The Motion for Reconsideration is DENIED and
the court having been polled at the request of one
of the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for Rehearing En Banc is also DENIED.
( ) A member of the court in active service having requested a poll on the reconsideration of this cause
en banc, and a majority of the judges in active service and not disqualified not having voted in favor,
Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Edith H. Jones
UNITED STATES CIRCUIT JUDGE

